 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




United States Patent and Trademark Office

       USPTO Needs Strong Office of Human
Resources Management Capable of Addressing
             Current and Future Challenges

                 Report No. BTD-16432-4-0001/June 2004




       PUBLIC RELEASE




      Office of Audits, Business and Science Audit Division

U.S. Department of Commerce                                 Final Report No. BTD-16432-4-0001
Office of Inspector General                                                         June 2004

retain the hundreds of new patent examiners it anticipates needing in the coming years,
but are essential to supporting a positive and productive work environment.

The allegations we received suggested that such practices were not in place. Specifically,
the complainants charged, among other things, that USPTO

 •	 did not adhere to merit system principles in appointing an interim manager for its
    Office of Human Resources, and
 •	 improperly classified and recruited for the position so as to give unfair advantage to
    the interim appointee.

USPTO suspended the aforementioned recruitment effort, pending the outcome of our
review.

We concluded that the process used to fill the director position was seriously flawed,
finding, among other problems, that the position description was improperly classified
(see page 8) and the announcement and application process did not follow HR regulations
(see page 9), largely because the agency has not implemented appropriate HR
management controls (see page 10).

We noted that USPTO must promptly

 •	 implement management controls to ensure adherence to merit system principles 

    (see page 5);

 •	 officially clarify the nature of its relationship with the Office of Personnel 

    Management (OPM) (see page 5); and

 •	 establish sound HR policies and procedures to guide its operations and decision-

    making (see page 6).


USPTO must also ensure that these policies and procedures promote an HR environment
that operates on integrity, the highest ethical values, and sound human capital
management practices, and that OHR itself is staffed by employees who have the full
competencies needed to accomplish their assigned duties.

The key to all of this is the need for USPTO to take the necessary actions to create an
effective Office of Human Resources that has the strong leadership needed to address
weaknesses that have too often undermined the agency’s HR operations.

We note that USPTO has been generally receptive to our findings and recommendations,
and has, for example, been working with OPM to recruit and hire a new director, and
undertaken a number of other positive actions to identify and better address some of the
conditions that have contributed to its HR problems. According to the CFO/CAO, these
efforts are already increasing agency awareness of the corrective actions and efforts
needed to significantly improve its human resources operations.




                                             2

U.S. Department of Commerce                                       Final Report No. BTD-16432-4-0001

Office of Inspector General                                                               June 2004


In response to the draft report, USPTO generally agreed with the findings and
recommendations and indicated that it plans to move expeditiously to address them.
USPTO also underscored significant steps it has taken to address HR management in
addition to the recommendations made in our report. These steps included (1) hiring a
contractor to assess the OHR organization and its staff and develop short and long-term
strategies for improving the OHR, and (2) obtaining assistance from OPM to recruit for a
permanent HR director. USPTO also made several other comments, some of which we
summarized and addressed at the appropriate locations in the report, and others that we
addressed by adding clarification in the report. USPTO’s complete response to our
findings and recommendations is included as Appendix I.

We appreciate the cooperation and courtesies provided by your staff throughout the
course of our audit. Steps discussed in the USPTO response to our draft report should
provide a firm foundation for developing an audit action plan. As outlined in DAO 213­
5, please provide us with the audit action plan addressing all of the report
recommendations within 60 days of the date of this memorandum. Should you need to
discuss the contents of this report or the audit action plan, please call me on (202) 482­
4661, or William F. Bedwell, Jr., Acting Deputy Assistant Inspector General for Audits,
on (202) 482-1934.

INTRODUCTION

The director of the Office of Human Resources (OHR) at USPTO serves as the agency’s
principal human capital advisor. The HR director oversees a staff of approximately 90
employees who are primarily classified in the human resources occupational series,
which means that their duties and responsibilities require knowledge and experience of
human resource regulations, policies, and procedures. OHR services more than 6,600
patent and trademark examiners and administrative staff. Management of the agency’s
HR office has been transient for some time: since the mid-1990s two permanent directors
and various acting directors have come and gone, the last permanent director having left
in March 2003 after two and a half years on the job.

Previous OIG reviews of the OHR management and recruitment practices found
substantial mismanagement of important personnel records and the need to improve
recruitment and retention of patent examiners. 1 USPTO indicated that it addressed these
concerns in response to our report recommendations. Our office has recently received
additional complaints about USPTO’s management of its human resources. The charges
in the complaints that were the impetus for this review questioned USPTO’s adherence to
merit system principles. Among other things, they alleged that USPTO did not adhere to
federally mandated merit system principles in appointing an interim manager for its
human resources function, and improperly classified and recruited for the position so as
to give unfair advantage to the interim appointee.


1
 Office of the Inspector General. Patent and Trademark Office, Improved Internal Controls Needed for
Office of Human Resources, BTD-12830, September 2000; and U.S. Patent and Trademark Office, Patent
Examiner Hiring Process Should be Improved, BTD-14432-2-0001, March 2002.


                                                  3

U.S. Department of Commerce                                Final Report No. BTD-16432-4-0001
Office of Inspector General                                                        June 2004

OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of this audit was to determine whether USPTO adhered to federally
mandated merit system principles in their attempts to hire an HR director. As part of our
methodology, we also sought to identify systemic problems that, if corrected, would
enable OHR to improve its operations. In pursuing our objectives, we reviewed
appropriate laws and department organization orders affecting USPTO; we also reviewed
laws, regulations, policies, and procedures regarding the civil service system, merit
system principles, and government requirements for recruitment, hiring and promotion.
In addition, we reviewed pertinent OPM guidance, and interviewed human resources
specialists and managers from OPM, the Department, and USPTO. Our review, except
where noted in this report, did not assess compliance with laws and regulations.

We performed the audit fieldwork at USPTO in Crystal City, Virginia, and at the
Department of Commerce and OPM in Washington, D.C. from September 2003 through
January 2004. We did not assess the reliability of computer-generated data because such
data was not material to our audit objectives. We conducted our work in accordance with
Government Auditing Standards issued by the Comptroller General of the United States,
and under authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended.


FINDINGS AND RECOMMENDATIONS

I.	 USPTO Needs to Ensure Management Controls Are in Place to Uphold Merit
    System Principles

The Patent and Trademark Office Efficiency Act of 1999 allows for USPTO to have
independent control of its personnel decisions and processes and other administrative and
management functions in accordance with Title 5. Departmental Organization Order
(DOO) 10-14, dated July 8, 2002, states that the USPTO Director shall exercise
administrative and management responsibilities to develop and issue agency
administrative orders, policies, standards, and procedures for administrative functions in
USPTO and to develop and administer the personnel management policies and programs
of USPTO, including the direction, administration, and processing of all matters
involving personnel, payroll, and occupational safety and health. At the time of our
review, USPTO had not fully implemented DOO 10-14.

A. 	To Ensure Appropriate Oversight of the HR Function, USPTO Needs to Clarify the
    Nature of Its Relationship with OPM

In a January 8, 2004 memorandum associated with this review, we advised the acting
director of USPTO that our audit had revealed that USPTO had failed to obtain delegated
examining authority from OPM. Without this delegation, agencies are not permitted to
fill civil service positions with candidates applying from outside the federal workforce.
To obtain this authority, agencies enter into a signed agreement with OPM, which



                                            5

U.S. Department of Commerce                                        Final Report No. BTD-16432-4-0001
Office of Inspector General                                                                June 2004

establishes their specific responsibilities in conducting competitive examining. In turn,
OPM provides delegated examining unit training and guidance, as well as oversight of
the agency’s delegated examining unit to ensure that federally mandated merit system
principles and protections are upheld.

In its January 28, 2004, response to us, USPTO stated,

        Because the Department of Commerce's (DOC) delegation of authority
        was transferred to the USPTO by operation of law, we disagree that the
        USPTO has been acting without appropriate authority. We agree,
        however, based on the IG's finding that certain individuals at OPM have
        expressed a contrary view, that we should expeditiously seek revision of
        the delegation document to more explicitly state the existing legal
        relationship between the USPTO and OPM.

While an OPM review of USPTO in September 2001 indicated that they were
aware of USPTO’s status as a PBO, 3 OPM officials we interviewed in the fall of
2003 told us that they believed that USPTO was still operating under the
Department’s delegation of examining unit authority and were unaware the
USPTO no longer received oversight from the Department’s OHR.

The issue of delegated examining authority is not addressed in DOO 10-14.
However, USPTO believes that the Department’s delegation of examining
authority was transferred to it as part of the Efficiency Act. USPTO points out
that the purpose of the Efficiency Act was to transfer to USPTO the
administrative authorities and responsibilities previously held by the Department,
including delegations of authority. In contrast to USPTO’s understanding, OPM’s
delegated examining authority agreement states that the Department’s delegated
examining authority cannot be redelegated which makes USPTO’s position that
the examining authority was transferred questionable. To clarify this issue, we
believe that USPTO should work with the Department and OPM to officially
obtain delegated examining authority through a signed agreement.

B. USPTO Needs to Establish HR Policies and Procedures to Guide Decision Making

As part of its responsibilities under the Patent and Trademark Efficiency Act of 1999, as
detailed in Commerce Departmental Organization Order 10-14, USPTO is responsible for
developing and issuing agency administrative orders, policies, standards and procedures
for administrative functions in USPTO and developing and administering the personnel
management policies and programs of USPTO, including the direction, administration,
and processing of all matters involving personnel, payroll, and occupational safety and
health; and personnel.



3
 U.S. Office of Personnel Management, Office of Merit System Oversight and Effectiveness, Report of an
Oversight Review U.S. Patent and Trademark Office, Department of Commerce.


                                                  6

U.S. Department of Commerce                                            Final Report No. BTD-16432-4-0001
Office of Inspector General                                                                    June 2004

However, when we asked USPTO officials for copies of their policies and procedures
used to carry out their HR responsibilities, USPTO officials stated that they relied on
departmental policies and procedures, 4 Title 5 of the United States Code, and “some of
their own” guidance. When we questioned USPTO about the organizational
responsibilities, they originally provided us with an outdated copy of the DOO. During
our review, we did find some USPTO-specific HR policies and procedures, such as the
telework policy and the merit assignment program. However, toward the end of our
review, we were told that USPTO never completed agency administrative orders,
organizational descriptions for aspects of HR operations, and other standard operating
procedures that would provide the basis for management actions. If USPTO wishes to
hire hundreds of new examiners in a very short timeframe, it is essential that the policies
and procedures governing such hirings be in place and understood by all of the
individuals who will be participating in those hirings.

C. Summary of Specific USPTO Comments to the Draft Report and OIG Response

USPTO stated that it was concerned that the report implies that USPTO’s decision to
continue to rely upon the Department’s policies and procedures is somehow improper.
USPTO explained that shortly after the enactment of the Efficiency Act, the USPTO
Director elected (as noted in 65 Federal Register 17858, April 5, 2000) to continue to
follow the Department’s regulations applicable to USPTO, until otherwise indicated.
DOO 10-14, dated July 8, 2002, clearly states that USPTO Director should develop and
administer the personnel management policies and programs of USPTO. If USPTO has
elected to use some of the Department’s policies and some of their own, as it told us, then
USPTO should have designated which of the Department’s policies it was administering
and which policies and procedures are developed and administered by USPTO.

In its response, USPTO stated that it is currently taking such a step, “…USPTO is
currently reviewing all DAOs [Departmental Administrative Orders] and determining
where it is desirable to supersede them with USPTO-specific guidance...” Clearly
delineating which HR policies and procedures it will be following is important progress
toward creating a understandable and transparent HR framework for use by both USPTO
internal staff, decision-makers, and external reviewers. USPTO also will need to take
action to create organization descriptions for USPTO line offices such as the Human
Resources Office, which are not included as part of the current Department Organization
Order series.

II. Process Used to Fill HR Director Position Was Flawed

Since March 2003, USPTO has taken steps to fill the vacant HR director position. After
the departure of the HR director, the deputy was named acting director. The CFO/CAO
requested that an attorney be detailed from the Office of General Counsel. The detail was
to an unclassified position titled “operations manager” in OHR. Although the attorney
had no previous experience in managing a human resources office, this unclassified
“operations manager” position essentially contained all the duties of the HR director.
4
    Prior to enactment of the act, the Department had oversight responsibility for USPTO’s HR operations.


                                                      7

U.S. Department of Commerce                                  Final Report No. BTD-16432-4-0001
Office of Inspector General                                                          June 2004

           commuting area; Reinstatement Eligibles in Washington, DC commuting area;
           DOC surplus, Displaced Employees in Washington, DC commuting area)
           If yes, how?”

      Since the statement of who may apply did not include VEOA eligibles, veterans who
      were in fact eligible to apply may have answered “no” and eliminated themselves
      from further consideration. When we questioned the operations manager about this
      statement, he stated that failure to include VEOA eligibles among the list of eligible
      applicants was not a USPTO HR staff problem, but a problem with the automated
      system that they were using. However, other Commerce offices using the system do
      not have this problem, and the Commerce “expert” on the system did not agree.
      Instead, she stated that users need to be knowledgeable about HR requirements and
      that the system can be used accordingly.

In short, managers and staff either overlooked federal regulations or stated that the
problems were caused by the automated staffing system. Based on our conversations
with USPTO staffing specialists, it appears that these problems are not limited to that
particular recruitment, and in fact reflect systemic weaknesses within OHR. We believe
USPTO needs to take steps to ensure that HR staff comply with federal personnel
regulations and that automated tools are used in a way to support these regulations.

C. Process Used to Recruit for the New HR Director Highlights the Need and
   Importance of USPTO Clearly Establishing and Adhering to Appropriate HR
   Management Controls

Title 5 U.S.C. details specific merit system principles that should be upheld by federal
agencies. One of these principles requires managers to ens ure that “recruitment should
be from qualified individuals from appropriate sources, in an endeavor to achieve a work
force from all segments of society, and selection and advancement should be determined
solely on the basis of relative ability, knowledge, and skills, after fair and open
competition which assures that all receive equal opportunity.”8 We believe that by
having the “operations manager” oversee the creation of the reclassified GS-301 position
description, USPTO failed to comply with the spirit of Title 5. This action—coupled
with the lack of a permanent manager, missing HR policies and procedures, questionable
classification practices, and non-compliant recruitment actions—raise significant
concerns regarding USPTO’s ability to ensure adherence to the merit system principles
designed to ensure that fair and open competition occurs.

USPTO must also promote an HR environment that operates on integrity, the highest
ethical values, and sound human capital management practices, and ensure that OHR
itself is staffed by employees who have the full competencies needed to accomplish their
assigned duties. USPTO has taken some steps to address our concerns. For example,
based on our discussions with CFO/CAO senior staff in January 2004, USPTO is
working with OPM to recruit for a new HR director, is using a contractor to assess the
OHR organizational structure and knowledge, skills, and abilities of OHR staff, and has
8
    5 U.S.C § 2301(b)(1)


                                              10

U.S. Department of Commerce                                  Final Report No. BTD-16432-4-0001
Office of Inspector General                                                          June 2004

ended the detail of the “operations manager” who returned to the Office of General
Counsel in January 2004. However, based on our previous findings regarding the OHR
and the previous attempt to recruit an HR director—a prominent position at USPTO—we
believe that USPTO needs to send a strong message to staff regarding its commitment to
upholding merit system principles. In addition, because of the significance of the HR
management position, USPTO should also ensure that the HR director has the requisite
knowledge, skills, and abilities and consider convening a panel with representatives from
other USPTO organizations to assist in the selection of the new HR director.

D. Summary of Specific USPTO Comments to the Draft Report and OIG Response

USPTO did not believe that classifying its HR director position in the 301 series
indicated a “de facto” misclassification and pointed out that other federal agencies are
classifying human resources positions in the 301 series. USPTO also stated that it
wanted a strategic manager that could focus on matters related to the President’s
Management Age nda and chose the broader 301 series, to permit a broader range of
candidates to qualify.

As we discussed in the report, outside classification experts reviewed the position
description written for the announced vacancy and concluded that based on application of
OPM standards to those duties, the position was misclassified.

USPTO also stated that our concern about USPTO’s self-rate procedure may need further
evaluation by all Inspector General Offices to identify appropriate safeguards for this
process. USPTO points out that OPM uses a self-rate procedure similar to the one used
by USPTO and that OPM encourages the use of electronic application processes because
it simplifies recruitment and hiring. Our concern in the report was not about USPTO’s
using a self- rate procedure as part of its electronic application process. We were
concerned about the HR specialist’s belief that it was not the specialist’s responsibility to
ensure that applicant’s self- ratings were consistent with the applicant's description of
their level of experience. OPM requires HR specialists to rank applicants with higher
proficiency levels above those with lower proficiency levels. Without taking some steps
to independently assess self-ratings, HR specialists cannot ensure that applicants with
higher proficiency levels will be ranked above those with lower proficiency levels and
thus not get the most qualified applicants for the job.

III. Recommendations

The Acting Under Secretary of Commerce for Intellectual Property and Acting Director
of the U.S. Patent and Trademark Office (USPTO) should take the necessary actions to
create an effective OHR with strong leadership. At a minimum he should do the
following:

   1.	     Ensure that USPTO works with the Department and OPM to officially obtain
           delegated examining authority.




                                             11

U.S. Department of Commerce                                 Final Report No. BTD-16432-4-0001

Office of Inspector General                                                         June 2004


    2.	      Ensure that USPTO develops HR organizational descriptions, policies, and
             procedures, in accordance with the intent of DOO 10-14.
    3.	      Ensure that staff, using the automated staffing system, comply with federal
             personnel regulations and the VEOA.
    4.	      Ensure that the HR director position, as described, be properly classified.
    5.	      Ensure that the OHR staff possess the expertise and receive the training
             necessary to accomplish their assigned duties.



cc: 	     Jo-Anne Barnard, CFO/CAO, USPTO
          Carol Stout, Audit Liaison, USPTO




                                             12

Appendix I   Appendix I
